<html>
<title> - MANAGEMENT OF CIVIL RIGHTS AT THE USDA</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                 MANAGEMENT OF CIVIL RIGHTS AT THE USDA 

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                     ORGANIZATION, AND PROCUREMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2008

                               __________

                           Serial No. 110-137

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-172 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


































              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

  Subcommittee on Government Management, Organization, and Procurement

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      BRIAN P. BILBRAY, California
CHRISTOPHER S. MURPHY, Connecticut   TODD RUSSELL PLATTS, Pennsylvania,
PETER WELCH, Vermont                 JOHN J. DUNCAN, Jr., Tennessee
CAROLYN B. MALONEY, New York
                    Michael McCarthy, Staff Director































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 14, 2008.....................................     1
Statement of:
    Boyd, John, president, National Black Farmers Association; 
      Lupe Garcia, president, Hispanic Farmers and Ranchers of 
      America, Inc.; Phil Givens, president, Phil Givens Co., 
      representative of Native American Farmers; Lawrence Lucas, 
      president, USDA Coalition of Minority Employees; and Lesa 
      Donnelly, advisor for Women's Issues, USDA Coalition of 
      Minority Employees.........................................    11
        Boyd, John...............................................    11
        Donnelly, Lesa...........................................    61
        Garcia, Lupe.............................................    19
        Givens, Phil.............................................    35
        Lucas, Lawrence..........................................    54
    McKay, Margo, Assistant Secretary for Civil Rights, U.S. 
      Department of Agriculture; Phyllis Fong, Inspector General, 
      U.S. Department of Agriculture; and Lisa Shames, Director, 
      Agriculture and Food Safety, U.S. Government Accountability 
      Office.....................................................    79
        Fong, Phyllis............................................    92
        McKay, Margo.............................................    79
        Shames, Lisa.............................................   104
Letters, statements, etc., submitted for the record by:
    Bishop, Hon. Sanford D., Jr., a Representative in Congress 
      from the State of Georgia, prepared statement of...........     7
    Boyd, John, president, National Black Farmers Association, 
      prepared statement of......................................    14
    Butterfield, Hon. G.K., a Representative in Congress from the 
      State of North Carolina, prepared statement of.............    74
    Donnelly, Lesa, advisor for Women's Issues, USDA Coalition of 
      Minority Employees, prepared statement of..................    63
    Fong, Phyllis, Inspector General, U.S. Department of 
      Agriculture, prepared statement of.........................    94
    Garcia, Lupe, president, Hispanic Farmers and Ranchers of 
      America, Inc., prepared statement of.......................    21
    Givens, Phil, president, Phil Givens Co., representative of 
      Native American Farmers, prepared statement of.............    37
    Lucas, Lawrence, president, USDA Coalition of Minority 
      Employees:
        Memorandum dated November 15, 2006.......................    44
        Prepared statement of....................................    56
    McKay, Margo, Assistant Secretary for Civil Rights, U.S. 
      Department of Agriculture, prepared statement of...........    83
    Shames, Lisa, Director, Agriculture and Food Safety, U.S. 
      Government Accountability Office, prepared statement of....   106
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................     3


                 MANAGEMENT OF CIVIL RIGHTS AT THE USDA

                              ----------                              


                        WEDNESDAY, MAY 14, 2008

                  House of Representatives,
            Subcommittee on Government Management, 
                     Organization, and Procurement,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:09 p.m., in 
room 2154, Rayburn House Office Building, Hon. Edolphus Towns 
(chairman of the subcommittee) presiding.
    Present: Representatives Towns and Bilbray.
    Also present: Representatives Bishop and Butterfield.
    Staff present: Michael McCarthy, staff director; William 
Jusino, professional staff member; Velvet Johnson, counsel; 
Kwane Drabo, clerk; Jim Moore, minority counsel; and Benjamin 
Chance and Chris Espinoza, minority professional staff members.
    Mr. Towns. Let me begin by first apologizing for the 
lateness, because we had a little conflict in that the other 
hearing ran a little longer than they had expected, and so it 
delayed our hearing, as well.
    Also, I understand that we have some votes coming up, so we 
wanted to get started at least and get as far as possible 
before the votes, and then return back after the votes.
    We have other Members that will be joining us shortly.
    Let me begin by first thanking the witnesses for coming 
today.
    The hearing will come to order.
    We are here to consider an issue that is a cause for great 
alarm: the all-too-familiar issues of discrimination within the 
U.S. Department of Agriculture. Discrimination in the delivery 
of services to minorities and women farmers and treatment of 
minority employees at USDA has been a longstanding problem, 
confirmed by official investigations and class action 
settlements. What was once envisioned by President Lincoln as 
the people's department, many now call the last plantation, and 
statistics seem to support this, and that is very troubling.
    For too long we have heard from minority farmers and 
workers at USDA that they have been shut out of Government 
loans and job promotions for decades because of the color of 
their skin. In fact, these problems have persisted for so long 
that Congress took action to reorganize USDA to emphasize the 
importance of Civil Rights.
    The 2002 farm bill established a position of Assistant 
Secretary of Civil Rights to provide overall leadership and 
coordination of all Civil Rights programs across the Department 
of Agriculture. Today, 5 years later, we examine whether that 
reform has been effective at eliminating discrimination at 
USDA. Unfortunately, the answer to that question appears to be 
no.
    Although Congress gave the Office of Civil Rights the 
resources, the autonomy, and authority to adequately help 
under-served farmers and minority employees, it remains unclear 
whether there has been any improvement in management of USDA 
Civil Rights programs. Serious questions have been raised in 
the past year regarding how USDA tracks, processes, and 
remedies complaints brought by farmers and its own employees.
    Today we will hear from members of the farming community as 
they tell us the difficulties that they personally experience 
at USDA. We will also hear from representatives of USDA 
employees. These personal stories are supported by Government 
audit findings. Last year the USDA Inspector General reported 
that employment complaints were not timely processed, there 
were no internal controls to ensure the accuracy and 
reliability of complaint data, and that complaint data in the 
Department's computer files did not match up with the physical 
cases. GAO also reports that lengthy backlogs persist and that 
the USDA's statistics are not reliable.
    Furthermore, there have been a series of incidents in the 
past few months that cause me to question the Department's 
commitment to safeguarding Civil Rights.
    In September 2007, an e-mail circulated among employees of 
the Farm Service Agency criticizing congressional action to 
reopen a landmark Civil Rights case against USDA for 
discrimination and providing farm loans to Black farmers. More 
recently GAO ran into several roadblocks in gaining access to 
documents, and at one point, were even kicked out of the 
building as they tried to interview employees.
    I want to send a very, very clear message that stonewalling 
a congressional investigation is unacceptable and will not be 
tolerated. Let me repeat: stonewalling a congressional 
investigation is unacceptable and will not be tolerated.
    Very little has changed in the last 5 years, despite a 
growing bureaucracy whose top priority is to address these 
issues. It is quite disturbing that we still regularly hear 
about discriminatory treatment or delay in resolving 
complaints. It seems to be that the missing link here seems to 
be one of accountability, from the highest level of management 
to the county supervisor in the field who fails to adequately 
service an African American farmer's loan.
    We have been talking about these issues for long, long 
enough. It is time to do something about them. It is my hope 
that we can work together to come up with a better strategy to 
ensuring that every client and every employee at USDA is 
treated fairly. This is why we have come together today, to put 
an end to this ugly, unfair practice.
    [The prepared statement of Hon. Edolphus Towns follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. I now stop and I recognize the ranking member of 
the committee, Mr. Bilbray from the great State of California.
    Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman. I want to thank you 
for having this hearing. I want to thank the panel for coming 
forward.
    Mr. Chairman, I think your opening statement speaks for 
both of us, and I will leave it at that. Thank you very much.
    Mr. Towns. Thank you very much.
    We are delighted this afternoon that we have with us a 
gentleman who has a District that has a tremendous amount of 
agriculture in it, and, of course, we would like to ask 
unanimous consent that he be allowed to sit with the committee 
today and to be able to give testimony and to be able to ask 
questions, Mr. Bishop from the State of Georgia.
    Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    First I would like to take this opportunity to salute 
Chairman Towns for his leadership on the issue of Civil Rights 
within USDA and to commend his continued efforts to seek equity 
and justice, not just for African American farmers, but for 
minority farmers everywhere.
    Chairman Towns' continued diligence and leadership on this 
issue dates back to 1983, when he arrived first in Washington 
as a young Congressman from Brooklyn. And, it serves as a 
tribute to his character and to his unfailing commitment to 
life and to protect those in our society who, by no fault of 
their own, continue to be subjected to the twin evils of 
bigotry and racism.
    This hearing comes at a crucial point on the legislative 
calendar, given the recent completion and the imminent approval 
of a new farm bill by the House of Representatives and the 
reopening of the Pigford case and the other initiatives that 
are aimed at preserving and expanding the number of small farms 
owned by minorities.
    Many of us in attendance here today are disappointed that, 
in 2008 we again find ourselves in another congressional 
oversight hearing on the shortcomings of the Department of 
Agriculture. Our USDA has yet to fully execute the Federal 
statutes and regulations governing the administration of our 
Nation's agriculture programs in a fair, equitable, and 
nondiscriminatory manner. Most disturbing appears to be the 
institutionalization of discriminatory practices, which at this 
point seem firmly rooted throughout the Department in both its 
external and internal operations and program management.
    Ironically, Abraham Lincoln, who is probably best 
remembered as the President who saved the Union and freed 
slaves, was also, the very same individual who had the vision, 
the insight, and the wisdom to found the Department of 
Agriculture. In 1862, when President Lincoln founded the U.S. 
Department of Agriculture, he referred to his new creation as 
the People's Department. In Lincoln's day, 90 percent of 
Americans were farmers, and all needed good seed and good 
information to grow their crops. These farmers included the 
newly freed slaves.
    African American farmers reached their peak in terms of 
land ownership in 1910 when 218,000 African American farmers 
owned around 15 million of the 873 million acres that were 
being farmed nationwide. Since 1910, while the total number of 
individual farms nationwide has decreased, the number of acres 
being farmed in the United States actually has grown slightly 
by about 6 percent. Despite this growth in farmed acreage 
nationwide, African American owned or controlled landholdings 
have decreased significantly over time. By 1978, African 
American owned or controlled landholdings fell to 2.4 million 
acres, and in 1999 2.3 million acres of land. Today that number 
stands at less than 2 million acres of the almost 931 million 
acres currently being farmed in the United States.
    A 1982 report by the U.S. Commission on Civil Rights 
charged that systematic racism carried out by the U.S. 
Department of Agriculture was one of the major causes of land 
loss among African American farmers. The Commission found that 
USDA employees routinely denied African American farmers credit 
and information about USDA programs that were readily 
accessible to White farmers. The Commission found the situation 
so dire they projected that if nothing were done, African 
American owned farms would cease to exist by the year 2000.
    In 1990 a report issued by the Congress' House Committee on 
Government Operations, Mr. Chairman, this very committee in a 
previous life, concluded that little had changed for the 
African American farmer since the 1982 report had been 
published. By systematically denying or delaying loans 
essential to financing their crops and withholding other 
Federal farm support on a widespread basis, USDA employees 
forced African American farmers to lose their land, their 
livelihoods, and their communities.
    Central to this issue is the manner in which the Farm 
Service Agency executes and administers its programmatic 
responsibilities in conjunction with the local county advisory 
committees. This is where the rubber meets the road, and all 
too often it serves as the link to many of the front line 
issues that are facing African American farmers today.
    Even as we sit here today, my staff is working with 
constituents facing potential discriminatory actions within a 
couple of FSA offices in my District. Critically important to 
resolving this issue means expanding and strengthening the 
administrative and management tools in place at the Department 
to provide the broadest and most effective level of management 
accountability possible.
    So, here we are again today raising the same concerns, all 
in the name of asking, if not admonishing, the Department of 
Agriculture to do what is fair and what is right.
    Mr. Chairman, I commend you and your subcommittee for again 
taking up this important issue today. It is my fervent hope 
that we may 1 day see a Department of Agriculture, which 
operates and administers its programs and activities as its 
founder, President Lincoln, would have hoped and expected as 
the People's Department, not just for some of the people, but 
for all of the people in these United States.
    Thank you, Mr. Chairman, for allowing me to participate. I 
look forward to the testimony of the witnesses.
    [The prepared statement of Hon. Sanford D. Bishop, Jr., 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Towns. Thank you very much.
    Let me say to the witnesses we swear in all of our 
witnesses here. It is a longstanding policy. So if you would, 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Towns. Let the record reflect that all of them answered 
in the affirmative.
    Let me introduce the panel.
    Mr. John Boyd is president of the National Black Farmers 
Association. Mr. Boyd is a staunch advocate for African 
American farmers throughout the country and has worked 
tirelessly to help eradicate discrimination within the USDA 
system.
    Welcome.
    Mr. Garcia is a third generation farmer and the lead 
plaintiff in a class action brought on behalf of Hispanic 
farmers and ranchers against USDA. He is also president of the 
Hispanic Farmers and Ranchers of America.
    Welcome, Mr. Lupe Garcia.
    Also I would like to introduce Mr. Phil Givens. Mr. Givens 
is a Native American and African American farmer from Oklahoma. 
Mr. Givens has farmed for over 26 years and represents farmers 
from 8 different Indian tribes located throughout the midwest.
    Welcome, Mr. Givens.
    Mr. Lucas, Lawrence Lucas, is president of the USDA 
Coalition of Minority Employees, with over 35 chapters 
throughout the country. The Coalition works to remedy 
representation in the USDA work force by advocating equal 
employment and promotion opportunities for all employees.
    Welcome, Mr. Lucas.
    Also we have Lesa Donnelly, who is the advisor for Women's 
Issues for the USDA Coalition of Minority Employees. She 
represents employees in administrative proceedings with the 
Department.
    Welcome, Ms. Donnelly.
    Let me begin with you, Mr. Boyd, and we will come right 
down the line.
    Let me just say this: we have a light, which means that you 
are allowed 5 minutes to make a statement. Then, the yellow 
light will come on and that will be like caution you to let you 
know that you should sum up, and then immediately after the 
yellow light means a red light that means you should shut up. 
[Laughter.]
    Let's move right down the line.

  STATEMENTS OF JOHN BOYD, PRESIDENT, NATIONAL BLACK FARMERS 
   ASSOCIATION; LUPE GARCIA, PRESIDENT, HISPANIC FARMERS AND 
RANCHERS OF AMERICA, INC.; PHIL GIVENS, PRESIDENT, PHIL GIVENS 
CO., REPRESENTATIVE OF NATIVE AMERICAN FARMERS; LAWRENCE LUCAS, 
   PRESIDENT, USDA COALITION OF MINORITY EMPLOYEES; AND LESA 
    DONNELLY, ADVISOR FOR WOMEN'S ISSUES, USDA COALITION OF 
                       MINORITY EMPLOYEES

                     STATEMENT OF JOHN BOYD

    Mr. Boyd. Thank you very much. Mr. Chairman, we appreciate 
the opportunity today to testify before this distinguished 
committee. To the ranking member and Congressman Bishop, we are 
old friends here.
    This has been such a long, long plight, and we also would 
like to recognize some of the other congressional Members that 
have been supporting the Black farmers and minority farmers 
around the country: Congressman Scott; Senator Obama, who 
sponsored legislation in the Senate for us, and other 
distinguished Members that have been working on this issue for 
such a long, long time.
    Mr. Chairman, you stole my testimony. So many of the things 
that I wanted to say, I won't read from my testimony. I would 
like to speak from the heart for just a few minutes about the 
plight of the Black farmers.
    We have been losing land at an enormous rate, three times 
greater rate than any other race of people in this country. In 
my own personal opinion, I feel that Black farmers have been 
shut out of our USDA lending programs, i.e., the U.S. farm 
subsidy program, where the top 10 percent of recipients in the 
U.S. farm subsidy program receive over $1 million, and Black 
farmers on average in this country receive less than $200. This 
is something that we fought diligently to correct in the past 
three farm bills.
    You asked a question earlier during your testimony: is the 
Office of Civil Rights working? Well, I came today to testify, 
to tell you, that it is absolutely not working. The Office of 
Civil Rights is, in my own opinion, in total disarray and 
totally dysfunctional to serve not just Black farmers, but 
small farmers around the country.
    We hear that there are complaint inquiries that may be 
shredded or may not be processed, so on and so forth. Mr. 
Chairman, these are farmers' lives. I think that is where we 
lose the connection with the U.S. Department of Agriculture 
when we make inquiries about these complaints. These are just 
not complaints; these are individuals' lives that they are 
refusing to process, that have been sitting there with dust on 
them. There have been complaints after complaints, report after 
report, the Blue Ribbon Task Force Report, the Civil Rights 
Action Team Report under Secretary Glickman, the Office of 
Civil Rights, where myself and Lucas and some of these other 
advocates lobbied for to get the Assistant Secretary of 
Administration.
    We were so excited about that, and we thought we were 
heading in the right direction, but it appears, Mr. Chairman, 
that we do not have the right person with the right amount of 
gumption to take on the old system there at the U.S. Department 
of Agriculture. What I mean by that is, after they get called 
in to meetings, they may come to the Department with the right 
intentions, but they leave there with a zero, because nothing 
seems to happen with the complaints and the settlement.
    You spoke earlier about the incident with the 30-year FSA 
employee. How can you have a 30-year veteran? Mr. Chairman, I 
spent 8 years, 8 long years, lobbying to get that one piece of 
legislation into the farm bill. When I heard about this 
particular e-mail that was sent to me by an anonymous person 
within Farm Service Agency saying that there were others out 
there, not political appointees, but career bureaucrats 
spending the taxpayers' money to lobby against bringing relief 
to Black farmers around the country, many who can't read and 
write and express themselves the way I am able to express 
myself to this committee--how dare those kinds of employees, 
Mr. Chairman, that are supposed to be giving a hand up to Black 
farmers, that are the very employees working to make sure that 
we become extinct. That is a disgrace to this Congress; it is a 
disgrace to this country.
    We appreciate your letter of inquiry to the Secretary 
questioning that issue.
    Then we had the GAO, who was not even allowed to question 
those who found fault in the system. Here, again, we have the 
USDA, with such arrogance, with the guidance of Office of 
General Counsel. Myself and Lucas and Ms. Gray and others have 
fought for such a long time to get the Office of General 
Counsel to stop dictating policy to the Secretary. The 
Secretary should be held accountable for these instances at the 
U.S. Department of Agriculture.
    As I close in my testimony, Black farmers need justice. We 
are getting these calls every day. We appreciate you, Mr. 
Chairman, and Congressman Bishop for helping make sure that the 
Black farmers will stay a part of the farm bill, but we need 
you to go one step further and hold those individuals 
accountable so that Black farmers will be able to walk into a 
USDA office in their local counties and be treated with dignity 
and respect and be treated like a man. Because, I am going to 
tell you first-hand, the Department of Agriculture almost made 
me less than a man.
    My great-great grandfather was a slave breeder. My 
grandfather was a farmer. My daddy was a farmer. They were able 
to hold on to the same farm that they passed on to me four 
generations later, and the Government was ready to foreclose on 
me. I felt less than a man that the person from the brink of 
slavery was able to farm and feed 12 children, and I only had 1 
child, and the Government was ready to foreclose on me.
    Thank God that we had good Members like yourself and 
Congressman Bishop and Secretary Glickman who put a moratorium 
on farm foreclosures, and that moratorium came 2 days before 
the sale date of my farm. I was able to hold on.
    I was one that beat the statistics, but what happened to 
all of the other Black farmers out in Alabama and Mississippi 
and Georgia? They face retaliation today, because the same 
person that discriminated against them in the first place is 
the same person that we have to go back to to ask to 
participate in the U.S. farm subsidy program, to participate in 
the farm lending programs.
    So, we are here today to ask this committee to take this 
testimony that you are going to hear from myself and other 
advocates today and go one step further. Hold those accountable 
who think they are not--or they think they are above this 
committee and above law.
    Thank you very much. I appreciate the opportunity and I 
look forward to your questions, Mr. Chairman.
    [The prepared statement of Mr. Boyd follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you very much, Mr. Boyd, for your 
testimony.
    Mr. Garcia.

                    STATEMENT OF LUPE GARCIA

    Mr. Garcia. Thank you, Chairman Towns and Ranking Member 
Bilbray and members of the distinguished subcommittee. I am 
Lupe Garcia, and everybody knows me by Lupe. I come from Dona 
Ana County. I am a third generation farmer. I represent the 
Hispanic Farmers and Ranchers of America. I am the lead 
plaintiff in a class action brought about for the Hispanic 
Farmers and Ranchers against the U.S. Department of 
Agriculture.
    My family and myself own two farms, total of 626 acres. I 
served the United States as a visiting professor with Oregon 
State University and with U.S. Mission in Central and South 
America. I came back to farm with my brother and father, and 
this is where the discrimination occurred to my family in the 
1980's. Our case seeks remedy of massive and admitted 
discrimination against Hispanic farmers who are denied equal 
access to USDA farm credit and non-credit farm benefit 
programs. When they complain to USDA about such denials; USDA 
refuses to process and investigate their complaints in 
violation of the ECOA and Administrative Procedure Act.
    Since 1983, USDA denied every loan application we 
submitted. We encountered difficulties that normally affect 
farming. USDA denied us further credit, denied us disaster 
relief, denied us debt servicing. As a result, we slowly and 
systemically drained our operating capital. We were operating 
out of, as you say, out of cuff.
    In 1984 a flood destroyed 60 acres of our chiles and our 
entire cotton crop. The USDA denied our application for 
disaster relief, because we were bad farmers, according to some 
of the committee men.
    In 1986, USDA loan specialists recommended to both USDA 
county loan officer and USDA Chief of Agriculture Loans of the 
State of New Mexico that our land be divided among me and my 
father and brother to increase the amount that we would be able 
to borrow. Not only did USDA reject our loan application, but 
it never informed us of this option to divide our farm land.
    In 1988 USDA denied our application for disaster relief 
after another flood destroyed 550 acres of crops. When we 
appealed to the county office, USDA literally laughed in our 
faces, denied our appeal for relief.
    In 1988 we applied for primary loan servicing. USDA sat on 
the application for 2 years before denying it.
    And, in the 1990's our farming operation continued to be 
slowly starved of the operating capital. In 1994, USDA, again, 
refused to work with us on loan restructuring. Later that year, 
we appealed to the USDA's Adverse Decision NAD, and on an 
appeal the hearing officer ruled in our favor.
    In spite of our victory, USDA refused to follow the NAD 
decision. We never received any loan servicing. Later, we 
attended a mediation session where the senior USDA official 
concluded that he would not approve anything that involved the 
Garcias.
    In 1998, we sought after farm buyers who were willing to 
purchase some of our land, which would enable us to service 
some of the delinquent debts and refinance the remaining debt. 
Again, USDA denied this opportunity.
    In the end we lost our farms. I will sum it up, cut it 
short. I will talk from the heart.
    This kind of thing is still going on. I do outreach for 
USDA through the Hispanic Farmers and Ranchers. We need 
servicing for Hispanic farmers, minority farmers in New Mexico 
and El Paso County, TX. We are not getting it. We have been 
promised low-doc loans and all types of loans, and the 
percentage of Hispanic farmers that get the loans are less than 
2 percent, even though we are helping the people with 
documentation of the loan applications. So there is a definite 
discrimination.
    We have heard of documents being destroyed in our Las 
Cruces office. This occurred this past year and just finished 
about 2 months ago. This was going on. They were destroying 
documents in that office. This needs to be investigated by the 
GAO.
    Mr. Towns. Right. Thank you very much.
    Mr. Garcia. We need help, and I hope that Congress hears 
our plight and does something about it.
    [The prepared statement of Mr. Garcia follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you, Mr. Garcia.
    Mr. Givens.

                    STATEMENT OF PHIL GIVENS

    Mr. Givens. First of all I feel honored being here. I am 
from Oklahoma. I am a bilingual Native American/African 
American farmer. I have had the misfortune in my lifetime 
having to deal with two Federal agencies based on where I live 
and my race and ethnicity. From 1899 to 1906, the Department of 
Interior Bureau of Indian Affairs told my grandfather and 
grandmother they could have this land in Oklahoma. To this day 
yet, FSA officials do not know how to perfect liens on 
restricted tribal trusts, simple fee allotted lands.
    In 1988 USDA and the Department of Interior entered an 
interagency agreement. For 10 years, I have showed OGC 
attorneys--some of them are here today present in this room--
and I asked them to tell me what the five types of Indian land 
we had in Oklahoma, and in that initial meeting they couldn't. 
Since then, they have learned the five types, but what has 
killed us in Oklahoma among Native American farmers is that we 
have USDA employees that can't read. Why, I don't know. I told 
an employee that and he said I was a racist, hostile farmer. I 
said, what part of 7 CFR 1901.651 do you not understand? It 
says Indian outreach. It didn't say Black, Hispanic, it says 
Indian outreach.
    I seem shocked. In 1996, I was right here in front of you 
all telling you all the same thing, and here we are today. I 
can't go down and mortgage my land to the bank, because I have 
to get approval from the BIA. In 2000, USDA--Senator Glickman, 
Oklahoma is on an action plan right now. We can't even vote in 
the county committee elections, because our land hasn't been 
reconstituted, tracked, and put in the system, so we can get a 
ballot to vote. Hell, if I could vote I would have a pow-wow, a 
hog-calling contest. I would be sitting on the county 
committee.
    We have no Native American representation on the county 
committee. The one that we had on the county committee this 
Federal Government sent to Baghdad, and because he missed two 
county committee meetings over in Baghdad and got shot--they 
threw him off the county committee because he missed two 
meetings.
    I mean, I am not getting emotional, but I am upset. 
Retaliation and reprisal--I had a State director bar me from 
USDA offices. OGC attorneys went to Oklahoma. One of them is 
sitting here behind me right now, Marlin Barts, the regional 
conservationist. The only reason why they said they barred me 
from the office is that I had access to all the top USDA 
employees in Washington, DC, and I knew more than they did. I 
am probably the only farmer that USDA has sent to school to do 
ethics training, Civil Rights training, 1951(s) training. 
Primary loan servicing that Mr. Garcia didn't get, they taught 
me how to do it. Yet, we still can't get a substantial number 
of Native Americans loans.
    One of the things that really upsets me, we have killed our 
kids. We have had to fly up here and ask about scholarships, 
internships. How do we meet the White House diversity? Make 
USDA look like this country. We have all the tribes in 
Oklahoma. Forty-seven Indian tribes are located in Oklahoma, 
yet we don't have a 1994 Indian college, so we are missing some 
of those congressional dollars.
    There was retaliation and reprisal that came close to me. I 
mean, it is rampant. If you go in the office and ask questions, 
you are labeled a troublemaker.
    One of the things I would like to see is OGC attorneys 
removed from any part of the Civil Rights. Our past Civil 
Rights Directors had to butt heads with them. Vernon Parker was 
Assistant Secretary for Civil Rights. We have had OGC lawyers 
tell them what to do, and there needs to be a process, a 
mechanism, that would streamline these complaint processes.
    Complaints are trashed and thrown away. We have had GAO 
people ask me how you came up with all these complaints. We 
were smart enough to keep copies of them. When we file a 
complaint, we fly up here and go to the Reporters Building. I 
get a letter the next week saying they have thrown out the 
complaint, because they never received it, yet they signed for 
it. There were 176 Civil Rights complaints that were thrown out 
this year that I personally flew up here and hand-carried, 
based on the 2000 compliance review, the 1996 compliance 
review, and the 2003 action plan Oklahoma was put on.
    I just don't see how it can end unless Congress jumps in 
here, interviews farmers, brings the good USDA employees to the 
table, and keeps their bosses from firing them when they step 
up to the plate to try to help minority farmers like me.
    Thank you.
    [The prepared statement of Mr. Givens follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you very much.
    Let me just say to the Members that we have three votes, 
and I would like to adjourn until 4:15. I hate to do this, but 
we have to vote around here. If we don't, they make a big issue 
out of it back in your District. So I want to pause until 4:15. 
So, we will adjourn until 4:15 and come back and start. We will 
start with you, Mr. Lucas.
    The committee stands adjourned until 4:15.
    [Recess.]
    Mr. Towns. The committee will come to order.
    Mr. Lucas. Mr. Chairman, I would like to enter a small 
package into the record.
    Mr. Towns. Without objection.
    Mr. Lucas. Thank you very much.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                  STATEMENT OF LAWRENCE LUCAS

    Mr. Lucas. First I would like to thank you and the 
committee for taking on this very daunting task of getting to 
the truth about really what goes on at USDA.
    I would like to thank you for allowing me, president of the 
USDA Coalition of Minority Employees, to come and speak about 
the abuses, the intimidation, the racism and sexism that has 
been going on at USDA much longer than we expected.
    I wasn't invited to the fairness hearing, and I said before 
Judge Freeman, this Pigford settlement is absent of 
accountability. There is nothing in this settlement that will 
promise farmers that they will not be discriminated in the 
future. I was right then, and I am right now.
    Other Senators have taken on this task, such as Senator 
Grassley, Senator Luger, and Senator Harkin.
    This long struggle with USDA is a culture of racism, 
sexism, intimidation, and other abuses of an out-of-control 
agency in which their Civil Rights office is dysfunctional in 
processing and administration of individual complaints of 
employees as well as farmers.
    I come to you today after experiencing and being part of a 
tribunal with Congresswoman Jackson Lee. During the 2-days, we 
heard riveting testimony from farmers, from employees about the 
abuse that they have suffered at the hands of USDA.
    I am sorry to say that John Boyd and many of us sitting at 
this table were elated that we found out that we finally got an 
Assistant Secretary for Civil Rights. I must say today to you 
that Civil Rights at USDA is worse now than it was when we 
first thought in 2003 that we had an Assistant Secretary that 
was going to do something about this problem.
    The CRAT and CRIT reports, one of the most scathing reports 
about an agency--and, by the way, they investigated themselves 
under the Glickman administration. The Democrats did a fair job 
of getting to that, but if you take a look around, the first 
thing that this administration did with the new Assistant 
Secretary, their leadership--and I am talking about leadership 
that is still there in the Department of Agriculture to this 
day--they made sure that the CRAT and CRIT reports were taken 
down from their Web site. You cannot find one CRAT or CRIT 
report in the office, because we tried to get it and we tried 
to also get them to adhere to the recommendations of that 
report.
    I am sorry to say, Mr. Chairman, this Department is out of 
control. They express their zeal and their gall and their 
arrogance when they decided to boot out the Office of General 
Counsel, who came to investigate and audit some of the problems 
that we have been saying, John Boyd and many of us at this 
table and other advocates and lawyers for farmers and employees 
for so many years how dysfunctional that office is.
    I think what happened was, they found out through their own 
channel--the way I find out information--that they realize that 
the employees were equally as fed up as the advocates. We, as 
well, have been telling the Congress and many others. So, they 
decided that they were going to shut down, and the Office of 
General Counsel at USDA, who will tell you years ago under J. 
Michael Kelly--who is still there today--he will tell you for 
years after we settled the Pigford case, there has been no 
discrimination against the Black farmers. And, we have settled 
these cases at a tune of almost $1 billion, but this is the 
kind of leadership and interference by the Office of General 
Counsel that has an iron hold when it comes to processing.
    I have been sitting trying to resolve an individual 
complaint in the ADR stage. They take their OGC attorneys to 
fight little people, so I know what they are doing when they 
are trying to fight farmers.
    The Assistant Secretary for Civil Rights today and 
yesterday have done a poor job and has been very disappointing. 
I think there are some things that you need to know.
    The Office of Civil Rights said that they were tracking the 
complaint systems, the complaints of employees and farmers. I 
have been telling USDA and the Office of Civil Rights, but they 
stopped talking to us, because we weren't telling them what 
they wanted to know. But, we have been telling the Office of 
the Secretary that in the complaint system that they tell you 
is working all right, the numbers don't jive.
    Mr. Towns. Mr. Lucas, could you sum up?
    Mr. Lucas. OK. In summary, what I would like to see from 
this committee is to hopefully put together an advisory 
committee and put the USDA Office of Civil Rights in 
receivership and appointment a board of five people, one from 
the Agriculture Committee, one from the House Agriculture 
Committee, one from the Agriculture, one representing farmers, 
and one representing employees, because USDA cannot police 
itself.
    Thank you very much.
    [The prepared statement of Mr. Lucas follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you. Thank you for your testimony.
    Lesa Donnelly.

                   STATEMENT OF LESA DONNELLY

    Ms. Donnelly. Mr. Chairman, thank you for allowing me to 
speak here today.
    I would like to place on the record six declarations from 
Forest Service employees from across the Nation.
    Mr. Towns. Without objection.
    Ms. Donnelly. Thank you.
    I worked for the USDA Forest Service for almost 25 years, 
from 1978 to 2002. In 1995, I filed a class action lawsuit on 
behalf of 6,000 Forest Service women in California, known as 
the Donnelly v. Glickman. It resulted in a Consent Decree to 
deal with issues of sexual harassment, hostile work 
environment, and reprisal. Prior to that lawsuit, there was a 
lawsuit called Bernardi that went from approximately 1971 
through 1994. Region Five California had been, through 2006, in 
Federal court monitored oversight on gender discrimination 
issues for 30 years through 2006. Still, women are sexually 
assaulted, threatened, and harassed to this day.
    As a lay advocate, I currently represent employees of 
California across the Nation. They are victims of sexual 
assault, physical assault, sexual harassment, gender, racial, 
and disability discrimination, and a lot of reprisal.
    For years and years, I have tried to work cooperatively 
with the Forest Service and USDA leadership, from the 
Secretary's office to the Chief's office to the regional 
offices, and it has been to no avail. They refuse to work with 
us. We could be a long way ahead in preventing and eliminating 
these abuses of employees if they would just come to the table 
and try to work with us, but they won't.
    They not only refuse to communicate; they ignore acts 
against employees that are so egregious that you would think 
they would have no conscience at all or humanity.
    As an example, I would like to bring forward the situation 
in 2005 in which I had a meeting with Under Secretary Mark Ray 
and tried to discuss the rape of a young female fire fighter in 
southern California, and Mr. Ray advised me that he and the 
USDA were not concerned about the incident, that it was merely 
a police matter. The woman had been complaining of sexual 
harassment for months prior to that and it ended in a rape.
    In 2005 another female fire fighter was sexually assaulted 
in Sacramento. When we spoke to Assistant Secretary for Civil 
Rights, Vernon Parker, he callously replied that it was not 
rape, because there was no penis penetration. The woman had 
been penetrated by the man's hand. He said it in a very callous 
manner. When the Monitor tried to speak with him more about it, 
he just dismissed it. He would not discuss it at all.
    The callous and insensitive ways that USDA and Forest 
Service management have dealt with these issues show a lack of 
concern, a total inhumanity toward these victimized employees. 
They highlight the agency's failure to address violations of 
law, policy, and procedure.
    Today, we have here with us Christine Levitop, who flew out 
from California. She was sexually assaulted in 2004 and, as of 
this day in 2008, she is still being retaliated against for 
reporting that. The regional offices and Washington offices 
will not take any action to stop this ongoing harassment and 
reprisal. There are numerous cases that I could speak about, 
but we don't have time for that here, numerous cases.
    Workplace violence is a very serious issue in USDA Forest 
Service and very problematic in Region Five California. They 
don't follow regulations and policies.
    I would like to bring to your attention a recent situation 
where a White male supervisor threatened an African American 
female subordinate with a gun. Management did not follow 
procedures properly. The two women still fear for their lives, 
and there still could be dire consequences from the agency not 
dealing with it.
    I would like to state that something has to be done. I 
think we need congressional oversight. I would like to 
emphasize that we need a panel, an independent advisory panel 
to deal with this, to deal with the reprisal which is rampant. 
And, I agree with Mr. Lucas, I would like to emphasize that 
USDA needs to be placed into receivership until something can 
be done for them to start dealing with issues of harassment, 
discrimination, workplace violence, and sexual assault have no 
place in the Government. Someone is going to be killed, sir, 
unless something is done about this.
    Thank you.
    [The prepared statement of Ms. Donnelly follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Let me thank all of you for your testimony, of 
course.
    At this time, I would just like to raise a few questions. 
You mentioned this retaliation. I am concerned about that, 
because it means that workers can't come forward to share, 
because they are afraid that they might be retaliated against. 
That, to me, is very, very disturbing. I think that it doesn't 
strengthen the agency when you behave and operate in that 
fashion. If a person comes forward with information, or even a 
strong suggestion, it appears that something negative might 
happen to them.
    Is this a recent thing, or has this been going on all 
along, Mr. Lucas?
    Mr. Lucas. What I have to offer is that the USDA Office of 
Civil Rights is not a leader in this regard. It has been going 
on throughout the Department for a long time. They have gotten 
to a point where if an employee speaks up and wants to improve 
the system or tell about the problems of the system, they are 
the people who are fired; they are the people who are put on 
discharge. We have had almost the loss of the life of an 
employee because of the oppression, and the Office of Civil 
Rights, itself, has over 30 or 40 complaints filed against its 
former Director of Civil Rights. So, this is a problem that is 
endemic, this reprisal and intimidation to control the kind of 
information that can come to this committee and to the American 
public. They are just as much a part of the problem, and they 
are not part of the solution in this regard.
    Mr. Towns. Thank you, Mr. Lucas.
    Let me ask you, Mr. Boyd, has the Department made any 
efforts to increase minority membership in county office 
committees? Have they made any attempt? It seems to me you need 
to have diversity there, as well.
    Mr. Boyd. I would say no. I think Mr. Givens touched on it 
earlier in his testimony about the lack of minorities that 
participate on the county committee. That is such an important 
factor with farm ownership loans, farm operating loans, farm 
equipment loans, because if you don't have representation in 
your area, the good old boys continue to receive these farm 
ownership loans and operating loans every year. What happens 
is, the county supervisor or county director there in those 
particular counties say, ``Mr. Boyd, we have already used our 
allotted moneys for this year, so you guys are welcome to come 
back next year.'' If you don't have a person on that county 
committee fighting for minority farmers in that area, you are 
not going to see an increase in farm loans throughout the Farm 
Service Agency.
    Mr. Towns. Right.
    Now, Mr. Givens, you mentioned the Bureau of Indian 
Affairs. I wasn't clear of the role the Bureau of Indian 
Affairs played in this.
    Mr. Givens. Mr. Chairman, there is a uniqueness. We are the 
only race of people that your blood quantum dictates services. 
The blood quantum dictates services. Because I am more than 
one-quarter blood Cherokee Choctaw Indian, I still have to get 
permission from the BIA to do business with USDA. We still have 
USDA employees who don't understand CFRs as it relates to 
Native Americans.
    A good example, I have children and relatives that would 
like to participate in the county committee election process, 
but until USDA employees do what we call reconstitution, put 
these tracts of Indian land in the FSA computer, we don't get 
to vote in all-White county committee elections. We filed 
complaints since 1994 to the present, yet the Office of Civil 
Rights has thrown out these complaints, even after compliance 
reviews were done. That is a serious problem.
    I would love for some of our tribal members to sit on the 
county committee, but that is an issue that FSA doesn't want to 
address. They say, ``Well, we can't identify Indian land.'' 
Well, sir, I brought a document here that says my grandfather 
was a full-blood Choctaw Indian in Oklahoma in 1904. Until this 
day, I still can't get all this Indian land in the FSA 
computer.
    I have met with the Secretary, I have met with the Under 
Secretary Floyd Gaber February 7th, but yet, the Office of 
Civil Rights has dismissed all our complaints over county 
committee election processes.
    Ms. Gray, who was the Civil Rights Director, traveled to 
Joplin, Missouri, Oklahoma. We have Cheree Henry who at the 
time was the Outreach Director. She tried to address these 
county committee issues. She was treated rudely, 
disrespectfully, and had some racial problems with the same 
office that I have to deal with every day.
    So, for you all to hear that Native Americans don't have 
full participation in USDA, we have the documentation to show 
that. None of my kids have ever been able to participate in the 
county committee election. Everybody in the county office is 
hired by the all-White county committee--uncles, nieces, and 
nephews. The credit manager's brother is chairman of the county 
committee. That is not only unethical, that is criminal when 
they both sign off on each other's signature. We filed a 
complaint, but the Office of Civil Rights hasn't done anything.
    We had a school superintendent that had to come up here 
last year and meet with Thomas Hoffler, file the program 
complaint, the Civil Rights complaint over county committee 
elections, and this is the first time we have ever had county 
committee polling places in Indian country. That is when gas 
was $2. Now it is $4. So we don't have access to the county 
committee election process. That is the local vocal point of 
input that we should have.
    Mr. Towns. Right.
    Mr. Givens. I wish you all would do something about that.
    Mr. Boyd. Mr. Chairman, I would just like to add, as well, 
that the minority advisors really don't have any voting rights 
to these committees. In some areas of the country, they have 
what is called minority advisor to their committee, but they 
really don't have any voting rights. What they usually do is 
offer a loan to that person, and that person usually does not 
go back out into the community to try to help other Black 
farmers and other minority farmers. So, we need to look at some 
of the policies so that we can get more representation for 
those voting members and get more participation from Blacks and 
Hispanics.
    The minority advisor is usually appointed, so it is not 
going to be a person like John Boyd or Phil Givens or someone 
very vocal in the community that is going to bring back and 
spread the word to other minority farmers in the community. So, 
we need to look at our policy and make some recommendations on 
how we can get more minorities involved in the county 
committee.
    Mr. Towns. Let me yield to a person that probably has more 
farm land in his District than anybody else in the U.S. 
Congress, from the State of North Carolina, Congressman 
Butterfield, 5 minutes.
    Mr. Butterfield. Thank you very much, Mr. Chairman, and 
thank you for allowing me to participate in this proceeding 
today. I am not on this subcommittee. That is my misfortune, 
but I do not serve on this committee. I am on the Energy and 
Commerce Committee, and therefore we do not have direct 
jurisdiction over these matters. But when the chairman told me 
that we would be delving into this subject today, I wanted to 
be a part of it, and he graciously allowed me this opportunity. 
So, thank you very much, Mr. Towns.
    It is true that I represent the First Congressional 
District of North Carolina. My District is in the northeastern 
part of the State of North Carolina. It used to be called years 
ago the Black Belt, and so, as you can imagine, we had many, 
many farms in my District that were owned by African American 
citizens many years ago. But, over the years we have suffered a 
tremendous loss in Black farmland in my Congressional District. 
My District has been particularly hard-hit in terms of the loss 
of Black farmland and Black farmers, and so I have an interest 
in this subject.
    Twenty-five years ago, when I was president of the Black 
Lawyers Association in my State, we started the land loss 
prevention project. Rosslyn Gray and others will remember when 
we started that program. That program has been very 
instrumental in trying to address this issue.
    But, the Black farmers represent an important community, 
That is the message that we have to convey every chance we get, 
Mr. Chairman. It is an important community. It is part of the 
economy.
    At the turn of the 20th century there were nearly 1 million 
Black-owned farms in the United States. Today, that number is 
down to about 18,000. That is a tragedy. That is an indictment, 
and not only on the Congress but on our country as a whole, and 
we must do better. Black-owned farms once represented 14 
percent of all farms. They now make up just 1 percent of all 
farms.
    As the backbone of rural America, farmers play a critical 
role as champions of micro-enterprise, land ownership, family 
values, and rural culture. The plight of the small farmer, 
particularly the Black farmer, has gone largely unaddressed. 
The Congress shares in that responsibility. The USDA certainly 
shares in that responsibility. We are going to hear from them 
in just a few minutes.
    Years of discrimination against Black farmers, as well as 
other socially disadvantaged farmers, by the USDA are directly 
responsible for the loss of land and the loss of a way of life 
for many Black farmers in America. Recognition of deficiencies 
in the equitable treatment of farmers have been slow coming, to 
say the least, at the USDA. The creation of the Office of Civil 
Rights in 1971 has done little to improve or correct the deeply 
rooted elements of discrimination in the Department.
    Its frequent reorganizations and reincarnations have failed 
to address the central issues of Black farmers and other 
socially disadvantaged farmers. This much was documented in the 
2003 report by the U.S. Commission on Civil Rights, which found 
that the changes in the Department had produced very little 
progress in their Civil Rights enforcement program. The 
appointment of the Civil Rights Action Team in 1996 shed some 
light on the problem, but lacked the authority to make any 
substantive changes. The creation of the Assistant Secretary of 
Civil Rights by Congress in 2002 was the most significant step 
to this date to rectify outstanding Civil Rights issues within 
the Department.
    I am most interested in the testimony of Secretary ,McKay 
as to the latest action within the Department to deal with that 
issue. But of highest concern to me this day are two recent 
actions by individuals within the Department, which clearly 
illustrate clearly the kind of lingering discrimination that 
plagues the Department from Washington, DC, all the way down to 
the local offices throughout the country.
    The first was the unauthorized use of Government e-mail 
last summer, among Farm Service Agency personnel to lobby 
against new Pigford legislation in this year's farm bill. I 
might say, Mr. Chairman, as you well know, we passed just 
moments ago the farm bill. That is why I came to the floor 
late--we just passed the farm bill. It has in it $100 million 
for Pigford claimants.
    [Applause.]
    Mr. Butterfield. It has been a long time coming, and I am 
not the only one who worked on that legislation, and credit 
goes to many. Congressman Benny Thompson, Congressman David 
Scott, Congressman Artur Davis, Congressman Bobby Scott--all of 
us had a hand in trying to make this happen. But it is in the 
legislation. We passed it a few moments ago. It has the 
concurrence of the Senate and should be headed to the 
President's desk, and hopefully he will sign it. If he does 
not, I think we have the votes to override. We do now have the 
votes to override that, so that is good news.
    [Applause.]
    Mr. Butterfield. I am personally proud of these historic 
steps that we have taken in this year's farm bill to help 
deserving Black farmers, many of whom live in my District, 
including Mr. Pigford, who calls me often. Many of whom you 
know, Pigford has led the way, he is a constituent of mine, 
along with Gary Grant and other Black farmers in the District 
who have suffered so much. So I am proud of the historic steps 
that we have taken in this year's farm bill to give these 
farmers a true opportunity for redress.
    Let me get back to these e-mails, and then I will conclude, 
Mr. Chairman.
    These e-mails, which were circulated on federally owned 
computers, illustrate a gross misunderstanding of the purpose 
of the Pigford decision, which was to award damages for the 
lost land and income of thousands of Black farmers whose 
livelihood was ripped from them, by the USDA's discriminatory 
practices. The pervasiveness of this incident draws startling 
conclusions, as the depths that long-term racial discrimination 
still exists within the Department, and we must recognize that 
and we must do something about it.
    I am further concerned by a February incident, between the 
GAO auditors and the Office of Civil Rights within the 
Department, as well.
    So I join Senator Obama and John Conyers and Benny Thompson 
and Bobby Scott in Artur Davis in a letter condemning the 
incident and the denial of the GAO auditors from carrying out 
their investigation of the Office of Civil Rights. The USDA did 
contact my office in response to our letter, and I certainly 
appreciate their prompt response; however, Mr. Chairman, I 
would appreciate more than that if they allow oversight wing of 
the Congress to have full access in their investigation of the 
Office of Civil Rights. Denying us our right to oversee the 
progress of this historically ineffective office only serves to 
deepen our doubt about the USDA's ability to improve its track 
record.
    With that, Mr. Chairman, I think I have run out of time. I 
don't see your clock. My committee room has a very prominent 
clock.
    Mr. Towns. It is there. It is on red.
    Mr. Butterfield. I have been looking for it. I need to look 
down instead of looking up. But thank you very much, Mr. 
Chairman. I will include the remainder of my comments in the 
record.
    I yield back.
    [The prepared statement of Hon. G.K. Butterfield follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you very much. I really appreciate your 
participation and also the work that you have done on this. You 
called some names that I have been dealing with for the last 
20-some years. Of course, when you mentioned Pigford and, of 
course, Boyd and people like that who we have had the 
opportunity to work with for many, many years on these issues, 
it is sad to say that we still have problems after all these 
years. Of course, I want to assure you that this committee is 
going to continue to look at these matters, we are going to 
continue to work on them, and I do believe that some changes 
need to be made.
    I notice you made some suggestions in terms of the advisory 
committee. You talked about even receivership. I hear you. I 
think that there is nepotism that was talked about, and some 
things there. So the point is that these are areas that we are 
concerned about, and we feel that in order to create a level 
playing field, that some of these things just have to be 
corrected.
    Of course, we listen to you, Mr. Givens, in reference to 
not only the fact that USDA, but also the Bureau of Indian 
Affairs--you have a double whammy there, so we hear you and, of 
course, we will continue to look at these matters and to see 
what we might be able to do to give you some assistance.
    We are not going to go away. We are going to continue, 
because we have heard the statistics in terms of land loss. I 
mean, at the rate we are going, within the next 15 to 20 years 
nobody Black will own anything, at the rate you are going. So I 
think that is wrong.
    I listened to you, Ms. Donnelly, in terms of the treatment 
in terms of women. That to me is very, very disturbing. I think 
in this day and age for anybody to react to something in that 
negative kind of fashion, to me just does not make sense. I 
want you to know I appreciate your comments. We appreciate your 
sharing with us.
    On this point what we would like to do is to thank you for 
your testimony. We are going to discharge you and we will take 
another 20-minute break, and then we are going to come back for 
the second panel. But let me thank all of you for your 
testimony. Thank you very much.
    [Recess.]
    Mr. Towns. It is a longstanding tradition that we always 
swear our witnesses in, so please stand and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Towns. Let it be known that all of them answered in the 
affirmative.
    We have with us today the Honorable Margo McKay, who serves 
as the Assistant Secretary for Civil Rights at the U.S. 
Department of Agriculture. Ms. McKay sets policy and ensures 
compliance with all Civil Rights laws by USDA's agencies. She 
is also responsible for diversity, outreach, and alternative 
dispute resolution programs of USDA.
    Phyllis Fong has served as the Inspector General for the 
Department of Agriculture since December 2002. Under her 
leadership, the USDA's Office of Inspector General has issued 
numerous reports detailing weaknesses in Civil Rights 
management at USDA.
    Welcome.
    We also have with us Lisa Shames, the Director of Natural 
Resources and the Environment at the U.S. Government 
Accountability Office, where she had conducted several audits 
that have focused on USDA's Civil Rights efforts.
    Let me just indicate that your entire statement will be 
placed in the record. If you just could summarize within 5 
minutes, I would certainly appreciate it.
    Why don't we start with you, Ms. McKay. Will you proceed?

   STATEMENTS OF MARGO MCKAY, ASSISTANT SECRETARY FOR CIVIL 
RIGHTS, U.S. DEPARTMENT OF AGRICULTURE; PHYLLIS FONG, INSPECTOR 
   GENERAL, U.S. DEPARTMENT OF AGRICULTURE; AND LISA SHAMES, 
    DIRECTOR, AGRICULTURE AND FOOD SAFETY, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

                    STATEMENT OF MARGO MCKAY

    Ms. McKay. Thank you, Mr. Chairman, and thank you for the 
opportunity to appear before this subcommittee today. I am 
happy to share whatever information that I can with you, 
because I believe we have a good story to tell. USDA has made 
significant progress in the area of Civil Rights since the 
creation of this position in the 2002 farm bill.
    The mission of the Office of the Assistant Secretary for 
Civil Rights is to provide leadership and guidance, to ensure 
compliance with Civil Rights laws and policies, and to promote 
diversity, equal opportunity, equal access, and fair treatment 
for all USDA customers and employees.
    It is my intent that the Office of the Assistant Secretary 
for Civil Rights will be proactive, supportive, accountable, 
efficient, and timely in order to help USDA become a model 
employer and provide equal access and opportunity to those who 
wish to participate in USDA programs and services.
    I would like to point out a few of our accomplishments in 
recent years.
    First, diversity in USDA: in the area of diversity, I began 
a concerted effort to incorporate workplace diversity and 
inclusion as a core value at USDA in order to positively impact 
the organizational culture. We established a new Office of 
Diversity and charged them with building a world-class 
diversity and inclusion program that includes initiatives such 
as cultural assessments, employee perspective surveys, 
mandatory diversity awareness training, a diversity and 
inclusion forum that will foster dialog between USDA employees 
and senior management, and work force planning.
    In the area of outreach, the Office of the Assistant 
Secretary for Civil Rights continues to collaborate with USDA 
agencies and external organizations to expand and strengthen 
the Department's outreach efforts to focus on the under-served. 
Through the Office of Outreach we have initiated policies and 
are implementing programs to increase the Department's capacity 
to provide access and technical assistance to socially 
disadvantaged farmers and ranchers.
    Just as one example, we have trained and worked with 
community-based organizations this past year to work with the 
socially disadvantaged farmers, to help us increase their count 
in the 2007 Census of Agriculture.
    With regard to diversity in county committees, first I want 
to point out that county committees play no role in the farm 
loan credit system and have not been involved in that process 
since 1999. Nonetheless, they do still have an important role 
in farm programs. Since the passage of the 2002 farm bill, USDA 
health as promulgated guidelines in January 2005, to ensure 
that the FSA county committees include fair representation of 
socially disadvantaged farmers and ranchers.
    USDA uses agriculture census to target certain counties, 
and they have come up with 400 counties so far with over 10 
percent minority population for special outreach efforts. And 
counties that don't have a voting socially disadvantaged 
members must appoint a non-voting socially disadvantaged 
member. There are about 1,500 such advisors who attend county 
committee meetings to lend their voice, and they are 
influential.
    Candidates can self-nominate, and through effective 
outreach efforts nominations of SDA--socially disadvantaged--
farmers, nominations have increased 60 percent over the last 3 
years. However, our analysis shows that elections over the past 
3 years have not yielded significantly more socially 
disadvantaged voting members. Currently my office is working 
with FSA to develop criteria for the Secretary to consider 
appointing voting socially disadvantaged members to some county 
committees in order to achieve fair representation.
    I might add that county committee members are held to the 
same Civil Rights policies and standards as Federal employees. 
Even though they are not Federal employees, they are bound to 
our Civil Rights policies and they can be removed for violating 
these policies.
    Our ultimate goal is to have an environment where 
discrimination does not occur, where every decision is based on 
merit, but we do need to have a process in place to handle 
situations when discrimination does occur. So my role is to 
make sure that we have that process in place. So with regard to 
complaints, the problems of backlog case inventory and case 
processing times at USDA Civil Rights have been many years in 
the making. I have inherited this situation, and I want to tell 
you what I am doing to address it.
    The automated complaint system, a Civil Rights enterprise 
system which was fully implemented in mid-2007, has enabled us 
to start tackling these problems with better monitoring and 
reporting capability. We are still not able to conduct an 
accurate trends analysis, because the historical data that we 
migrated into the system has come from unreliable sources. The 
systems that we had in the past which were inaccurate.
    But this system that we have now is a vast improvement, 
over anything that we have ever had in the past, and going 
forward with the input of current case data, we will be able to 
do trends analysis.
    The system is beautiful. It works beautifully if the 
employees put the data in. We do have some challenges in that 
area. We have a lot of hands that have to touch the system, 
including at the agency level and the department level. We have 
had training for everyone involved. We have monthly user 
meetings so that any bugs in the system or any glitches can be 
worked out. And we are continuing, of course, to work out those 
bugs and to work toward further enhancements of the system. But 
the system is new. We need to have an opportunity to give it a 
chance to work.
    In addition, we are implementing several strategies to 
address internal and external factors affecting the management 
of Civil Rights complaints. These strategies include special 
efforts, to eliminate the backlog. I have hired contractors and 
engaged in contracting services to help us eliminate the 
backlog. We will be finished with the employment backlog by the 
end of this fiscal year in terms of issuing final decisions, 
and we have already eliminated the program backlog at the final 
agency decision stage.
    I also have started something new, where I require weekly 
and monthly inventory and productivity reports that come to the 
leadership. So we need to know how things are going and how 
things are being accomplished, so that we can intervene if 
things are going awry.
    We have also revised performance and productivity standards 
for employees. We have modified complaint processing 
procedures. As I mentioned, we are utilizing contractual 
services and inter-agency agreements to assist with case 
processing, and we are encouraging increased use of alternative 
dispute resolution in the informal and formal stages.
    We are addressing timeliness and jurisdictional issues in a 
more timely way, and we are providing additional training for 
staff, filling critical vacancies and implementing quality of 
work life and professional development strategies for the 
Office of Assistant Secretary for Civil Rights employees.
    I want to mention, while I am talking about complaints, 
that we do not condone retaliation. We have a policy against 
it. Anyone who feels as though they have been retaliated has 
the right to file another complaint, a new complaint, and have 
that heard. And we have mandatory annual training, annual Civil 
Rights training every year at USDA for all USDA employees, and 
the 2007 Civil Rights training was in the area of retaliation.
    I want to speak a little bit. My last point is about 
accountability. Every USDA employee has a Civil Rights and 
diversity performance standard against which they are evaluated 
annually. Agency heads are evaluated annually based on their 
Civil Rights performance. And in the past, they have been able 
to get a good score by earning extra credit. So, for example, 
by conducting training above and beyond the mandatory Civil 
Rights training that all USDA employees must take, or putting 
on a conference. However, during my tenure I have changed the 
practice so that----
    Mr. Towns. Could you sum up?
    Ms. McKay. Yes. Going forward, certain factors will be 
absolute and cannot be made up, such as completing complaint 
investigations on time, so that will help us in our timeliness.
    Also, USDA has a policy that requires that we refer a case 
to the appropriate H.R. office, for possible disciplinary 
action whenever there is a finding of discrimination. This is a 
policy that went into effect in 2006.
    In summary, I respectfully disagree with those who say we 
are doing nothing to improve Civil Rights at USDA. Perhaps we 
haven't done enough to get the word out, but we have been very 
busy with all these initiatives, and I am very proud of our 
record and what we are attempting to do.
    Thank you very much for your time.
    [The prepared statement of Ms. McKay follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you.
    The Honorable Phyllis Fong.

                   STATEMENT OF PHYLLIS FONG

    Ms. Fong. Thank you, Mr. Chairman, for inviting us to 
testify today. I appreciate the chance to talk about the work 
that our office has done in overseeing USDA's Civil Rights 
program.
    The issue of Civil Rights and the processing of Civil 
Rights complaints has been a significant issue to us for a long 
time. We have issued 11 audits, on a variety of issues in the 
program over a 10-year period, and that work is summarized in 
my statement.
    Today, I want to focus on some of the recurring themes that 
we have seen in our reports, and then discuss our most recent 
report.
    We looked at our reports over this last period of time and 
we have found a number of themes that we believe are relevant 
to you today because we believe they identify fundamental 
issues in the program that need to be addressed if USDA is to 
move forward. These themes include the continuous internal 
reorganization within the Civil Rights Office that has 
occurred. There is, turnover at both management and staff 
levels that has occurred. There is, in our view, a lack of 
effective leadership and accountability to correct reported 
problems that have been identified. And there is a lack of 
adequate management controls to track progress in achieving 
results.
    Many of these themes came out in our most recent report, 
which we issued about a year ago, on how USDA was addressing 
EEO complaints and employee accountability. We had several key 
findings that I want to highlight.
    First, we found that Civil Rights had made improvements in 
the amount of time that it takes to process complaints, but we 
found that additional efforts are needed to close complaints in 
an acceptable timeframe. For comparison's sake, in 1997 it took 
the Department on average 3 years to process a complaint; by 
2007 this had improved significantly to just under 1\1/2\ 
years, but this still falls short of the EEOC's timeframe. They 
would like Federal agencies to process cases within 270 days, 
so USDA has a ways to go on that.
    In a second area, we found that Civil Rights had made 
progress in implementing CRES, the automated system that 
Assistant Secretary McKay referred to. This system is a good 
system, and when it is fully implemented we believe it will be 
helpful to the Department in tracking complaints and providing 
data for reports. We found, however, that further work is 
needed to ensure the accuracy of the data that is being entered 
into the system. For example, in 17 percent of the files that 
we looked at, the data recorded in CRES was not supported by 
the documents in the complaint files. So there needs to be a 
process to validate the accuracy of the information entered 
into the system.
    Third, we found that, while Civil Rights had made progress 
in managing its physical case files, it still needed to 
establish adequate controls over its file room operations. We 
asked Civil Rights to review 64 complaint files as part of our 
review. Of the 64, the office could not locate readily 15 of 
the files. It took more than a month to locate 13 of them. The 
14th one was never found and had to be recreated. And the 15th 
one was provided to us 6 months after we had requested it.
    As a result of our review, we made recommendations to 
address all of these issues, and the Office of Civil Rights has 
agreed to implement all of them.
    Where we are, in conclusion, is that we believe that the 
processing of Civil Rights complaints continues to be a 
significant management challenge for USDA. It is very important 
to employees and participants to get timely action on their 
complaints, and we appreciate the interest that you have shown 
in these matters. We look forward to working with you and with 
the Assistant Secretary, and we also want to express our 
appreciation to the Assistant Secretary for her cooperation in 
our audit.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Fong follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you so much for your testimony, Ms. Fong.
    Ms. Shames.

                    STATEMENT OF LISA SHAMES

    Ms. Shames. Chairman Towns, I am pleased to be here today 
to discuss the Department of Agriculture's progress in 
addressing longstanding Civil Rights issues. As you know, for 
years USDA has been the focus of reviews into allegations of 
discrimination against minorities and women, both in its 
programs and in its work force. Many, including the Congress, 
the Civil Rights Commission, the EEOC, USDA's own Inspector 
General, as well as GAO have provided constructive analyses and 
made recommendations to improve its Civil Rights efforts. 
Unfortunately, based on GAO's work to date, we find that USDA's 
management of its Civil Rights efforts continues to be 
deficient.
    Specifically, we found persistent problems in resolving 
discrimination complaints, unreliable reports on minority 
participation in USDA programs, and limited planning to ensure 
USDA's services and benefits are provided fairly and equitably.
    First, regarding discrimination complaints, when the Office 
of the Assistant Secretary was established in 2003, one of its 
top priorities was to reduce the backlog and inventory of 
discrimination complaints that it had inherited. Four years 
later, the office's progress report, entitled, The First One 
Thousand Days, stated that the backlog had been reduced and the 
inventory was manageable; however, the disparities we found in 
the numbers USDA reported to the Congress and the public 
undermined the credibility of any claims. We found numerous 
disparities, and some of these disparities were in the 
hundreds.
    For example, in this progress report released in July 2007 
USDA reported the number of customer complaints was stated to 
be 404 in its inventory at the end of fiscal year 2005. 
However, 1 month earlier, USDA reported to this subcommittee 
that the number of complaints in its inventory was 1,275. USDA 
qualified this number and other numbers to this subcommittee as 
the best available and acknowledged that they were incomplete 
and unreliable.
    USDA is aware of these issues; however, fundamentally there 
appears to be a lack of management attention to resolving the 
backlog of complaints. For example, we would have expected 
routine management reports to track these cases, but we were 
told none are generated, because they are not required by law.
    We are pleased to hear that Ms. McKay is now going to be 
requiring the sorts of reports that are intended to bring 
consistent management attention.
    Second, regarding minority participation in USDA programs, 
Congress required USDA to report annually on minority farmers' 
participation in USDA programs by race, ethnicity, and gender. 
USDA issued three reports for fiscal years 2003, 2004, and 
2005; however, USDA disclosed that its demographic data in 
these reports are unreliable because they are largely based on 
visual observation. The drawback to visual observation is that 
some demographic traits may not be readily apparent to an 
observer.
    Collecting demographic data directly from program 
participants requires approval from the Office of Management 
and Budget [OMB]. USDA started to seek OMB's approval to 
collect these data in 2004, but did not follow through because 
we were told of insufficient resources. According to USDA 
officials, they are planning future actions to obtain the 
necessary authority.
    In addition, we found the Web-based supplementary data for 
these reports to be of limited usefulness. They are published 
in over 1,300 separate tables and 146 maps. This format does 
not facilitate analysis such as comparing minority 
participation by program, location, and year.
    Finally, regarding planning to ensure USDA's services and 
benefits are provided fairly and equitably, results oriented 
strategic planning provides a road map that clearly describes 
what an organization is attempting to achieve, and over time it 
can communicate to the Congress and the public about what has 
been accomplished. While the Office of the Assistant Secretary 
has defined its mission and strategic goal, looking forward 
stakeholders' interests should be more explicitly reflected in 
the planning.
    For example, our interviews with stakeholders informed us 
that their interests include assuring the diversity of the 
USDA's county committee system and better addressing language 
differences, among other things.
    Data collection to demonstrate progress toward achieving 
its mission and goal is an important next step for measuring 
performance. A discussion on how data collected by other USDA 
agencies, such as a National Agricultural Statistics Service or 
the Economic Research Service is especially important in an era 
of limited resources.
    Last, using data to identify gaps can help USDA improve 
performance on its Civil Rights efforts. For example, in 2002 
GAO recommended that USDA establish time requirements for all 
stages of the complaint process. With these standards, along 
with routine management reports to track cases along the lines 
of what we just heard, this office can begin to troubleshoot 
its most problematic areas.
    In conclusion, USDA has been addressing allegations of 
discrimination for years. One lawsuit has cost taxpayers nearly 
$1 billion to date, and several other groups are seeking 
redress for similar alleged discrimination. Despite the 
numerous past efforts to provide USDA with constructive 
analyses and recommend actions for improvement, significant 
management deficiencies remain. Such resistance to improve its 
management calls into question USDA's commitment to more 
efficiently and effectively address discrimination complaints 
both within its agency and across its programs.
    This concludes my prepared statement, and I would be 
pleased to answer any questions.
    [The prepared statement of Ms. Shames follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you very much. Let me thank all three of 
you for your testimony.
    Let me begin, I guess, by asking the IG, throughout GAO's 
investigation there were reports that the Department withheld 
access to certain records, instructed employees not to 
cooperate with the GAO, and actually forced GAO's investigators 
to leave USDA premises when GAO was seeking to interview USDA 
employees as part of its review.
    Because GAO is an independent nonpartisan agency that works 
for Congress, your Department's denial of access of GAO to 
records and employees also denies Congress' role in providing 
effective and appropriate oversight.
    Why was GAO told to leave USDA's offices in February 2008? 
Who made that decision?
    Ms. Fong. I will take a crack at that question, and I would 
invite any information from Ms. Shames, as well.
    We were called by GAO in February, after the situation had 
come to a head, and what we were told by GAO was that they had 
sought to interview USDA employees about some allegations that 
documents may have been shredded improperly or that data may 
have been erroneously changed. At that time, we did not know 
the background on that, but we immediately saw that there was 
an issue. Our sense was that the allegations, if true, would 
potentially indicate criminal conduct, and so we felt very 
clearly that we had jurisdiction within the IG's office to look 
into this, so we reached out to GAO's investigative staff and 
decided that we would work this jointly to deal with the 
concerns that had been articulated by USDA's General Counsel.
    I think the General Counsel had two concerns. One is 
whether GAO's investigative staff had authority to conduct 
criminal investigations; and, second, whether or not USDA 
employees were given the appropriate advice on their rights and 
responsibilities. We believed that by getting involved 
ourselves with GAO that we could address those concerns on the 
part of the General Counsel, and at the same time accommodate 
GAO's need to get access to the information, as well as carry 
out our responsibility to look into potential criminal issues.
    I think we were able to successfully resolve that 
situation. We were able to interview the employees that were 
involved, and to complete the work.
    Ms. Shames. If I might jump in, Mr. Chairman?
    Mr. Towns. Sure.
    Ms. Shames. The bottom line is that in the end GAO was able 
to interview, along with the OIG, all of the USDA employees 
that we felt we needed to talk to to gather more information 
concerning several allegations that we heard concerning 
obstructing GAO's work, shredding some documents, as well as 
manipulating some of the data.
    In the end, we got full cooperation from USDA. We were able 
to gather sufficient information to either refer some of these 
allegations back to the Inspector General or to the Department 
of Justice, and in the end GAO was able to get sufficient 
information to be able to report out on the findings that I 
gave to you today.
    Mr. Towns. Right. Thank you very much.
    Let me go to you, Ms. McKay. You heard the testimony from 
Mr. Boyd, of course, and Mr. Givens, and you stated that county 
committees played no role in the disbursement of USDA program 
benefits. But we have heard time and time again from farmers 
that are discriminated against by these county boards when they 
apply for loans. You heard, as indicated, Mr. Givens, Mr. Boyd, 
and, of course, I have talked to others, and there are no 
minorities on these county committees. What role does the 
county committee play?
    Ms. McKay. The county committee does not get involved in 
applications for credit programs. There are other USDA programs 
and benefits that they do get involved in, such as disaster 
assistance. They do have a very important role in making sure 
that local farmers have access to USDA programs and services. 
However, there is a misconception that they still play a role 
in approving applications for credit. They do not and have not 
since 1999. Applications for farm loans, operating loans, go 
directly to the FSA county office, not to the county 
committees.
    Mr. Towns. Now, you indicated that you made some progress.
    Ms. McKay. Yes.
    Mr. Towns. Could you be specifics, because the general 
feeling out there is that nothing is really being done, and 
they have actually lost confidence in you and your Civil Rights 
Division. They have lost confidence in it. You heard some of 
the comments here today.
    Ms. McKay. Yes.
    Mr. Towns. So could you respond to that?
    Ms. McKay. Well, I think that a lot of the comments that 
were made predate my tenure at USDA, and I understand how they 
feel. I would feel the same way. But, respectfully, I think 
they are not looking at what we are trying to do. It is a large 
ship and it turns slowly, and the initiatives that I am working 
on right now will eventually pay off. These problems were years 
in the making; they are not going to go away overnight.
    I think I can do a better job in communicating what we are 
working on, which is why I really appreciate the opportunity to 
be here today to talk about what we are doing. And I do 
honestly believe that it will pay off.
    Mr. Towns. Right. Do you have time tables, aims, 
objectives, and goals?
    Ms. McKay. We do. We have a diversity strategic plan. We 
have an outreach strategic plan. We have strategic plans in 
place or in clearance for our initiatives.
    Mr. Towns. Let me just point out to you, USDA's recent 
history has included several serious accusations of non-
compliance with Federal and Civil Rights statutes. As a result 
of Pigford, USDA health as recompensed more than 13,000 Black 
farmers nearly $1 billion--that is B as in Boy--in damages for 
Civil Rights violations. Since then, three other class action 
suits have been filed alleging racial or gender discrimination 
in FSA programs: Garcia v. Glickman on behalf of Hispanic 
farmers; Keepseigel v. Glickman on behalf of American Indians; 
and Love v. Glickman on behalf of women.
    How many USDA employees were terminated or in any way 
disciplined for those more than 13,000 instances of 
discrimination?
    Ms. McKay. I can't tell you that. First of all, I was not 
here then. Second, there was no reporting mechanism at the 
time, at the time of Pigford in the 1990's. As I mentioned in 
my statement, we do now have an accountable policy that 
requires, whenever there is a finding of discrimination, and 
even sometimes in a settlement, that persons who are found to 
have committed wrongdoing are referred to the appropriate H.R. 
office for disciplinary action.
    Mr. Towns. So do you hear whether anybody was fired?
    Ms. McKay. I have heard, but I don't think it would be 
appropriate for me to say here because I don't have any basis 
in fact for what I am hearing.
    Mr. Towns. I just find it sort of difficult to think about 
13,000 wrongdoings. If it was in private industry, some heads 
would roll, no ifs, ands, and buts about it, and you know that.
    Ms. McKay. I don't know that they didn't roll. I just don't 
know one way or the other.
    Mr. Towns. Well, according to the information that we have, 
they did not roll. Many of the farmers in the first panel 
pointed out discrimination in the administration of programs 
benefit by FSA. Although the details vary from farmer to 
farmer, the general outlines of the stories remain the same. A 
minority farmer tries to apply for farm operating loan through 
the FSA county office, well in advance of planting season. The 
FSA county office might claim to have no applications--can you 
imagine that? No applications available, and ask the farmer to 
return later.
    Now, planting is a timely thing that you have to do during 
a certain timeframe, and you can't plant after a certain date 
and time because of a lot of reasons. And upon returning, the 
farmer might receive an application without any assistance in 
completing it, and then asked repeatedly to correct mistakes or 
complete oversight in the loan application.
    Why wouldn't somebody give him technical assistance, 
because some of these farmers don't have a lot of training in 
terms of their educational training, but they know how to farm.
    Ms. McKay. Right.
    Mr. Towns. And they have been doing it all their lives. 
That is all they know. I mean, why wouldn't technical 
assistance be available to those farmers?
    Ms. McKay. Well, we rely on the community-based 
organizations to provide that kind of local hands-on technical 
assistance. In addition, we have a Center for Minority Farmers 
at USDA so that if someone calls we might be able to assist, 
but we don't have the staff to be throughout the country 
assisting farmers to fill out applications. We do work with our 
partners, our community-based and faith-based organizations. We 
train them. We rely upon them when we have our partners 
meeting, which we do regularly. And actually they get grants 
also to provide that kind of technical assistance.
    Mr. Towns. Another thing they complain about is that when 
they get the loan, if they get it, it is reduce, and then it is 
not enough to be able to go and to pay the vendors and to move 
forward. Of course, here they are with not enough, stuck with a 
loan, not being able to plant. How do you expect them to pay 
it? That is the reason why I think technical assistance just 
would be automatic, because we know that farmers don't 
generally have Ph.Ds.
    Ms. McKay. Right. And also the local FSA office is supposed 
to provide technical assistance, and if they don't then we need 
to hear about it through the complaint process.
    Mr. Towns. Let me ask this, then. If you have an office or 
an agency that is not complying, what happens to them? If these 
complaints come in and the fact that there is no applications 
in the office, and they complain, what generally happens in a 
case like this? Help me.
    Ms. McKay. I don't understand what you mean what generally 
happens.
    Mr. Towns. There is no repercussion? For instance, if I 
have an agency and I am providing applications and I have no 
applications, and I had no applications last year, and I had no 
applications when I came in, then something should happen to 
that agency. I mean, the person that is providing the service, 
shouldn't they be penalized? What happens to them?
    Ms. McKay. If the case----
    Mr. Towns. Because if I say to you that I went and they had 
no application, and then I let you know there is no 
application, isn't somebody supposed to do something about 
that?
    Ms. McKay. I would agree with you. I don't disagree with 
you. And if the case can be proven, then there should be 
consequences.
    Mr. Towns. Well, let me put it this way: I have been in 
this business a long time. In fact, I am in my 26th year here 
in the U.S. Congress. I started in this 26 years ago, and I 
heard the complaints 26 years ago coming from some names that I 
hear right here on this paper right today. Of course, the 
complaints were basically saying--I can't hold you responsible 
for all 26 years, but I can hold you responsible for the years 
that you have been here, because getting applications does not 
require a big plan of action and all that; it just requires 
having some papers where they are supposed to be. Somebody has 
to be responsible. In terms of your role as the Secretary for 
Civil Rights, I mean, and knowing these complaints exist, 
wouldn't you find it necessary to make certain that everyone 
has applications that they can give out to people?
    Ms. McKay. Absolutely, but this is the first I am hearing 
of it. I have not received a case with that allegation.
    Mr. Towns. Well, let me just say this. There is a problem, 
and I think you should at least be aware of the fact there is a 
problem.
    Ms. McKay. If someone brings those facts to me, I will make 
sure they get into the system and are thoroughly vetted and 
looked at.
    Mr. Towns. And also I just wanted to let you know that 
Pigford v. USDA--you know about that one--and then you have 
these other three that are pending. To me, that is a message. 
That says that something has to be straightened out here, 
because also you have Love v. Glickman on behalf of women. 
These are problems.
    When you talk to people in general, they are not positive 
at all. I just think you need to know that.
    I want to help you. I want to help you. I want to see what 
we can do. Now, I know we talked about the advisory committees, 
and there is very little confidence in that. I understand that 
the people that oversee, once they get their loan they don't 
see anything. That is a problem. If I am supposed to work with 
everybody and see that everybody is treated fairly, and then I 
come in and put my application in and you give me my loan and 
then I am blind from that point on, I don't see anything, that 
is not the way to go. So we need to sort of find a way that 
makes it possible for people to feel that they are being 
treated fairly and that they are being treated fairly, and that 
the farmer has an opportunity to plant in a timely fashion.
    If you get the money in December and say that you didn't 
get it before, what can you plant in December? That is the 
problem.
    So all these things are what people are saying to me, and I 
have indicated the fact that I started with this 26 years ago. 
Of course, I left it alone because we had people that were 
working on the Agriculture Committee and they sort of took it 
over, but a lot has not happened positively since that time.
    So let me put it this way: we are not going to go away. We 
are going to stay on this. I am willing to help you. Maybe you 
need some resources. I don't know what it is, but I think you 
need to be open and honest with us, because this has to be 
fixed, because if not you are going to have more suits, more 
suits, more people going to lose their farms, and that is not 
anything you want to leave as your legacy, that you were around 
when X percent lost their farms. I don't think you want that as 
a legacy. I don't think so.
    Anyway, thank you for your testimony. I thank all of you 
for the work that you are doing. I want you to know that we are 
going to be following up on this. This is not the last time you 
are hearing from me.
    Ms. McKay. Thank you, Chairman. We look forward to working 
with you.
    Mr. Towns. Right. Thank you. Thank you very much.
    On that note, the committee is adjourned.
    [Whereupon, at 6:13 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
